<html>
<title> - SPACE WEATHER: ADVANCING RESEARCH, MONITORING, AND FORECASTING CAPABILITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   SPACE WEATHER: ADVANCING RESEARCH,
                MONITORING, AND FORECASTING CAPABILITIES

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT
                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                                 OF THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 23, 2019

                               __________

                           Serial No. 116-52

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-122PDF                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
CONOR LAMB, Pennsylvania             BRIAN BABIN, Texas
LIZZIE FLETCHER, Texas               ANDY BIGGS, Arizona
HALEY STEVENS, Michigan              ROGER MARSHALL, Kansas
KENDRA HORN, Oklahoma                RALPH NORMAN, South Carolina
MIKIE SHERRILL, New Jersey           MICHAEL CLOUD, Texas
BRAD SHERMAN, California             TROY BALDERSON, Ohio
STEVE COHEN, Tennessee               PETE OLSON, Texas
JERRY McNERNEY, California           ANTHONY GONZALEZ, Ohio
ED PERLMUTTER, Colorado              MICHAEL WALTZ, Florida
PAUL TONKO, New York                 JIM BAIRD, Indiana
BILL FOSTER, Illinois                JAIME HERRERA BEUTLER, Washington
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois
KATIE HILL, California
BEN McADAMS, Utah
JENNIFER WEXTON, Virginia
                                 ------                                

                      Subcommittee on Environment

                HON. LIZZIE FLETCHER, Texas, Chairwoman
SUZANNE BONAMICI, Oregon             ROGER MARSHALL, Kansas, Ranking 
CONOR LAMB, Pennsylvania                 Member
PAUL TONKO, New York                 BRIAN BABIN, Texas
CHARLIE CRIST, Florida               ANTHONY GONZALEZ, Ohio
SEAN CASTEN, Illinois                FRANCIS ROONEY, Florida
BEN McADAMS, Utah                    VACANCY
DON BEYER, Virginia
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 HON. KENDRA HORN, Oklahoma, Chairwoman
ZOE LOFGREN, California              BRIAN BABIN, Texas, Ranking Member
AMI BERA, California                 MO BROOKS, Alabama
ED PERLMUTTER, Colorado              BILL POSEY, Florida
DON BEYER, Virginia                  PETE OLSON, Texas
CHARLIE CRIST, Florida               MICHAEL WALTZ, Florida
KATIE HILL, California
JENNIFER WEXTON, Virginia
                        
                        
                        C  O  N  T  E  N  T  S

                            October 23, 2019

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Lizzie Fletcher, Chairwoman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Roger Marshall, Ranking Member, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Kendra Horn, Chairwoman, Subcommittee 
  on Space and Aeronautics, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

Statement by Representative Brian Babin, Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    14
    Written Statement............................................    15

Written statement by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    16

                               Witnesses:

Mr. Bill Murtagh, Program Coordinator, National Oceanic and 
  Atmospheric Administration's Space Weather Prediction Center
    Oral Statement...............................................    17
    Written Statement............................................    20

Dr. Nicola Fox, Heliophysics Division Director, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    25
    Written Statement............................................    28

Dr. Conrad C. Lautenbacher, Jr., VADM USN (ret.), CEO of 
  GeoOptics, Inc, and former Under-Secretary of Commerce for 
  Oceans and Atmosphere and National Oceanic and Atmospheric 
  Administration Administrator (2001-2008)
    Oral Statement...............................................    32
    Written Statement............................................    34

Dr. Harlan E. Spence, Director, Institute for the Study of Earth, 
  Oceans, and Space, and Professor of Physics and Astronomy, 
  University of New Hampshire
    Written Statement............................................    38

Discussion.......................................................    47

              Appendix: Answers to Post-Hearing Questions

Mr. Bill Murtagh, Program Coordinator, National Oceanic and 
  Atmospheric Administration's Space Weather Prediction Center...    66

Dr. Nicola Fox, Heliophysics Division Director, National 
  Aeronautics and Space Administration...........................    78

Dr. Conrad C. Lautenbacher, Jr., VADM USN (ret.), CEO of 
  GeoOptics, Inc, and former Under-Secretary of Commerce for 
  Oceans and Atmosphere and National Oceanic and Atmospheric 
  Administration Administrator (2001-2008).......................    84

Dr. Harlan E. Spence, Director, Institute for the Study of Earth, 
  Oceans, and Space, and Professor of Physics and Astronomy, 
  University of New Hampshire....................................    90

 
                   SPACE WEATHER: ADVANCING RESEARCH,
                      MONITORING, AND FORECASTING
                              CAPABILITIES

                              ----------                              


                      WEDNESDAY, OCTOBER 23, 2019

                  House of Representatives,
                       Subcommittee on Environment,
               joint with the Subcommittee on Space
                                   and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to notice, at 2:42 p.m., in 
room 2318 of the Rayburn House Office Building, Hon. Lizzie 
Fletcher [Chairwoman of the Subcommittee on Environment] 
presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fletcher. This hearing will come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    Good afternoon, and welcome to today's joint Subcommittee 
hearing on advancing our Nation's space weather activities. I'm 
happy to be here with my colleague, Space and Aeronautics 
Subcommittee Chairwoman Horn, to discuss the important topic of 
space weather.
    The term space weather may not be familiar to everyone, but 
we are aware of some of its more benign examples, such as the 
northern lights. Space weather describes naturally occurring 
disturbances in space that are primarily driven by the sun. 
These variations in the space environment can negatively impact 
technology in space such as satellites for weather and GPS, 
pose health risks to our astronauts, and also affect critical 
ground-based systems such as electric grids. Despite knowing 
the potential for these significant impacts, our ability to 
forecast space weather events with significant notice is 
limited at best.
    Given our society's dependence on many technologies that 
could be impacted by space weather events, it's critically 
important that we understand both the physical processes that 
drive these phenomena, and how we can forecast them earlier to 
allow adequate protection of critical assets. For this we need 
to invest in scientific research and sustained observations.
    NOAA (National Oceanic and Atmospheric Administration) is 
responsible for the civilian forecasting through the National 
Weather Service's Space Weather Prediction Center, SWPC. The 
forecasters and scientists at SWPC collect data and 
observations from their own network of satellites and work in 
close partnership with other Federal agencies including NASA 
(National Aeronautics and Space Administration), who we have 
here today, the U.S. Air Force, the National Science Foundation 
(NSF), and the United States Geological Survey (USGS), among 
others.
    Assets in space provide key data necessary for accurate and 
timely space weather forecasts. Disruptions in this data due to 
malfunctions, as we are currently seeing with NOAA's Deep Space 
Climate Observatory, or DSCOVR, satellite, without a long-term 
redundancy plan puts our critical infrastructure in space and 
on the ground at risk.
    A recent study contracted by NOAA on customer needs for 
space weather products and services found that space weather 
disturbances can impact major sectors of society, including 
aviation, electric power, navigational satellites, and 
emergency management. It highlighted the utility and importance 
of NOAA's space weather products to protecting their 
infrastructure from damage, but also made clear that they can 
be further improved to allow for greater accessibility and 
usability.
    Improvements in our understanding of space weather will 
come through robust collaboration between the Federal 
Government and partners in both the commercial and academic 
sectors. Though we only have witnesses representing the 
government and commercial sectors today due to unforeseen 
circumstances, I would like to stress the important role that 
the research community plays in shaping these conversations. 
This is especially true when it comes to understanding the 
outstanding science questions in this field. It is critical 
that we continue to foster these partnerships between the 
government, academia, and commercial sectors. Indeed, it's 
something that I often remark when I'm at home this Committee 
in particular does so well.
    I'm looking forward to today's discussion about the current 
state of our space weather activities, from fundamental 
research to forecasting, and receiving feedback on how Congress 
can support improvements to our forecasting capabilities.
    [The prepared statement of Chairwoman Fletcher follows:]

    Good afternoon and welcome to today's joint subcommittee 
hearing on advancing our nation's space weather activities.
    I am happy to be here with my colleague, Space and 
Aeronautics Subcommittee Chairwoman Horn to discuss the 
important topic of space weather. The term space weather may 
not be familiar to everyone, but we are aware of some of its 
more benign examples, such as the Northern lights.
    Space weather describes naturally occurring disturbances in 
space that are primarily driven by the Sun. These variations in 
the space environment can negatively impact technology in space 
such as satellites for weather and GPS, pose health risks to 
our astronauts, and also affect critical ground-based systems 
such as electric grids.
    Despite knowing the potential for these significant 
impacts, our ability to forecast space weather events with 
significant notice is limited at best. Given our society's 
dependence on many technologies that could be impacted by space 
weather events, it's critically important that we understand 
both the physical processes that drive these phenomena, and how 
we can forecast them earlier to allow adequate protection of 
critical assets. For this we need to invest in scientific 
research and sustained observations.
    NOAA is responsible for the civilian forecasting through 
the National Weather Service's Space Weather Prediction Center 
(SWPC). The forecasters and scientists at SWPC collect data and 
observations from their own network of satellites, and work in 
close partnership with other federal agencies including NASA, 
who we have here today, the U.S. Air Force, the National 
Science Foundation, and the United States Geological Survey 
among others. Assets in space provide key data necessary for 
accurate and timely space weather forecasts. Disruptions in 
this data due to malfunctions, as we are currently seeing with 
NOAA's Deep Space Climate Observatory satellite, without a 
long-term redundancy plan puts our critical infrastructure in 
space and on the ground at risk.A recent study contracted by 
NOAA on customer needs for space weather products and services 
found that space weather disturbances can impact major sectors 
of society including aviation, electric power, navigational 
satellites and emergency management. It highlighted the utility 
and importance of NOAA's space weather products to protecting 
their infrastructure from damage, but also made clear that they 
can be further improved to allow for greater accessibility and 
usability.
    Improvements in our understanding of space weather will 
come through robust collaboration between the federal 
government and partners in both the commercial and academic 
sectors. Though we only have witnesses representing the 
government and commercial sectors today due to unforeseen 
circumstances, I would just like to stress the important role 
that the research community plays in shaping these 
conversations. This is especially true when it comes to 
understanding the outstanding science questions in this field. 
It is critical that we continue to foster these partnerships 
between the government, academia, and commercial sectors.
    I am looking forward to today's discussion about the 
current state of our space weather activities, from fundamental 
research to forecasting, and receiving feedback on how Congress 
can support improvements to our forecasting capabilities.
    Thank you.

    Chairwoman Fletcher. I would now like to recognize Mr. 
Marshall for an opening statement.
    Mr. Marshall. Thank you, Chairwoman Fletcher, for holding 
this important hearing today on the topic of space weather. I 
also want to thank our three witnesses for being here this 
afternoon and sharing their expertise on this important topic.
    Space weather is a term many people have not often heard 
of. The term refers to the interaction of solar activity with 
technology and life on Earth, as well as in orbit. This is by 
no means a new phenomenon, as we have records of solar activity 
going back more than 150 years. However, our need to forecast 
this phenomenon has become more critical as our utilization of 
space-based technology has increased.
    When I consider the importance of space weather research to 
Kansans, I think about the potential negative impacts solar 
activity can have on our farmers and ranchers. The agriculture 
sector is usually among the first of industry who adapt new and 
innovative technologies to improve their operations.
    Kansas farmers in particular have been at the forefront of 
adapting precision agricultural practices. Precision 
agriculture refers to the use of technologies such as GPS and 
unmanned aerial vehicles to make decisions related to planting 
crops and implementing conservation practices. The use of these 
technologies helps our farmers make better informed decisions 
about the timing and location of planting crops in order to 
minimize irrigation and the use of fertilizer and pesticides. 
I've seen firsthand the improvements in productivity and crop 
yields for our farmers and ranchers who utilize these 
techniques. None of these would be possible without the use of 
GPS and satellite imagery, which are vulnerable to solar 
weather incidents.
    Accurate weather forecasting is another concern for our 
farmers. Knowing precisely when to plant crops can help 
significantly reduce input costs for farmers, which in turn 
reduces costs for consumers. An especially severe space weather 
event has the potential to damage our orbiting weather 
satellites, which in turn would significantly reduce the 
accuracy of our weather forecasts needed to help our farmers 
make informed decisions.
    A final area of concern for rural Kansans is the potential 
impacts a geomagnetic storm could have on our electrical grid. 
We have a basic understanding of the potential disruptions a 
severe event can make on our power grid, resulting in blackouts 
which would affect hospitals, schools, businesses, and our 
farmers. What we still need is a more advanced knowledge of how 
to prevent or mitigate the damages a space-weather-caused 
blackout could have on critical infrastructure.
    I look forward to hearing from our witnesses on how we can 
ensure rural Kansas and all Americans are prepared for these 
events. Thank you, Chairwoman Fletcher, and I yield back.
    [The prepared statement of Mr. Marshall follows:]

    Thank you, Chairwoman Fletcher, for holding this important 
hearing today on the topic of space weather. I also want to 
thank our witnesses for being here this afternoon and sharing 
their expertise on this important topic.
    Space weather is a term many people have not often heard. 
The term refers to the interaction of solar activity with 
technology and life on Earth as well as in orbit. This is by no 
means a new phenomenon, as we have records of solar activity 
going back more than 150 years. However, our need to forecast 
this phenomenon has become more critical as our utilization of 
spacebased technology has increased.
    When I consider the importance of space weather research to 
Kansans, I think about the potential negative impacts solar 
activity could have on our farmers and ranchers. The 
agriculture sector is usually among the first of industry who 
adapt new and innovative technologies to improve their 
operations.
    Kansas farmers in particular have been at the forefront of 
adapting precision agricultural practices. Precision 
agriculture refers to the use of technologies such as GPS and 
unmanned aerial vehicles to make decisions related to planting 
crops and implementing conservation practices.
    The use of these technologies helps our farmers make better 
informed decisions about the timing and location of planting 
crops in order to minimize irrigation and the use of fertilizer 
and pesticides. I've seen firsthand the improvements in 
productivity and crop yields for our farmers and ranchers who 
utilize these techniques. None of these would be possible 
without the use of GPS and satellite imagery, which are 
vulnerable to solar weather incidents.
    Accurate weather forecasting is another concern for our 
farmers. Knowing precisely when to plant crops can help 
significantly reduce input costs for farmers, which in turn 
reduces costs for consumers. An especially severe space weather 
event has the potential to damage our orbiting weather 
satellites, which in turn would significantly reduce the 
accuracy of our weather forecasts needed to help our farmers 
make informed decisions.
    A final area of concern for rural Kansans is the potential 
impacts a geomagnetic storm could have on our electrical grid. 
We have a basic understanding of the potential disruptions a 
severe event could have on our power grid, resulting in 
blackouts which would affect hospitals, schools, businesses, 
and our farmers. What we still need is a more advanced 
knowledge of how to prevent or mitigate the damages a space 
weather caused black out could have on critical infrastructure.
    I look forward to hearing from our witnesses on how we can 
ensure rural Kansans and all Americans are prepared for these 
events. Thank you, Chairwoman Fletcher, I yield back.

    Chairwoman Fletcher. Thank you. I'll now recognize the 
Chair of the Subcommittee on Space and Aeronautics, Ms. Horn, 
for an opening statement.
    Chairwoman Horn. Thank you, Chairwoman Fletcher.
    Good afternoon, and welcome to our witnesses. I look 
forward to your testimony today. And I am so pleased to be 
working with Chairwoman Fletcher and the Ranking Members on 
these two Subcommittees on this important hearing about space 
weather and advancing research, monitoring, and forecasting 
capabilities. This is an incredibly timely hearing, because it 
allows us to talk about the connection between what we do in 
space and our lives every day here on Earth.
    Our activities in space not only advance and enable 
scientific discovery and exploration, but also on the Earth 
banking, telemedicine, natural resource management, and so much 
more.
    The orbiting spacecraft above--weather, communications, 
GPS, and Earth-observing systems--are a critical part of our 
national infrastructure. Solar phenomena or space weather such 
as solar flares, solar wind, geomagnetic storms of energized 
charged particles, however, can disrupt ground and space-based 
technologies and infrastructure. Space weather can affect 
everything from electrical power systems, satellites, aircraft, 
space operations, including human spaceflight operations, and 
other ground and space-based systems. The list is long. In 
short, severe space weather events pose a significant threat to 
our infrastructure, and in turn, to our economy, our national 
security, and our lives here on Earth.
    Currently, NASA's heliospheric research satellites and a 
NOAA-NASA-Air Force operational satellite collect observations 
used in space weather modeling and predictions. NASA's Advanced 
Composition Explorer and the joint European Space Agency NASA 
SOHO mission launched over 20 years ago, along with other NASA 
spacecraft such as STEREO and the Solar Dynamics Observatory. 
They provide critical information in forecasting solar 
eruptions and their movement through the heliosphere. However, 
these systems are aging, and we will have gaps in space weather 
data once they reach the end of their operating lifespans. We 
must develop the next generation systems for space weather 
observations.
    As a first step, however, we need to understand at a 
national level what space weather observations and systems are 
needed. Simply put, we need a strategy because we are only at 
the early stages of our ability to predict and forecast space 
weather. Improving our current capabilities will require a 
strategy and investments in basic research, observations, 
models, and the ability to transition research and models into 
operational use.
    The National Academies' 2013 Solar and Space Physics 
Decadal Survey stated, ``Achievement of critical continuity of 
key space environmental parameters, their utilization in 
advanced models, and application to operations constitute a 
major endeavor that will require unprecedented cooperation 
among agencies in the areas in which each has specific 
expertise and unique capabilities.''
    Making advances in space weather will require a coordinated 
effort among researchers, operational institutions, government, 
academic, commercial, and international entities. The role and 
perspectives of academia are essential in this effort. And 
while we were unable to include the academic perspective today 
due to unforeseen circumstances, as Chairwoman Fletcher noted, 
it's important to recognize the importance of academia in 
advancing space weather capabilities.
    Madam Chair, the Nation's efforts to address the threats of 
space weather demonstrate the ways in which our investments in 
NASA and basic research benefit our society. In the case of 
space weather, these investments are integral in ensuring the 
safety and operations of our critical infrastructure on the 
ground and in space. I look forward to hearing from our 
witnesses on what is needed to advance our Nation's 
understanding and ability to monitor, predict, and forecast 
space weather. Thank you and I yield back.
    [The prepared statement of Chairwoman Horn follows:]

    Good afternoon, and welcome to our witnesses. I look 
forward to your testimony. I'm pleased be working with you, 
Madame Chair, on this important joint hearing on ``Space 
Weather: Advancing Research, Monitoring, and Forecasting 
Capabilities.''
    This is a timely hearing, because it allows us to talk 
about the connection between what we do in space and our 
everyday lives on Earth. Our activities in space enable not 
only scientific discovery and exploration, but also banking, 
telemedicine, natural resource management, and so much more. 
The orbiting spacecraft above-the weather, communications, GPS, 
and Earth observing systems-are a critical part of our national 
infrastructure.
    Solar phenomena-or space weather- such as solar flares, the 
solar wind, and geomagnetic storms of energized charged 
particles, however, can disrupt our ground and space-based 
technologies and infrastructure.
    Space weather can affect everything from electrical power 
systems, satellites, aircraft, and spacecraft operations 
(including human spaceflight operations), and other ground and 
spacebased systems. In short, severe space weather events pose 
significant threats to our infrastructure, and in turn, to our 
economy, national security, and society.
    Currently, NASA heliospheric research satellites and a 
NOAA-NASA-Air Force operational satellite collect observations 
used in space weather modeling and prediction. NASA's Advanced 
Composition Explorer and the joint European Space Agency-NASA 
SOHO mission launched over 20 years ago, along with other NASA 
spacecraft such as STEREO and the Solar Dynamics Observatory, 
provide critical information in forecasting solar eruptions and 
their movement through the heliosphere.
    However, those systems are aging, and we will have gaps in 
space weather data once they reach the end of their operating 
lifetimes. We must develop the next generation systems for 
space weather observations.
    As a first step, however, we need to understand at a 
national level what space weather observations and systems are 
needed; we need a strategy. Because we are only at the early 
stages of our ability to predict and forecast space weather. 
Improving our current capabilities will require a strategy and 
investments in basic research, observations, models, and the 
ability to transition research and models into operational use.
    The National Academies 2013 solar and space physics decadal 
survey stated, ``Achievement of critical continuity of key 
space environment parameters, their utilization in advanced 
models, and application to operations constitute a major 
endeavor that will require unprecedented cooperation among 
agencies in the areas in which each has specific expertise and 
unique capabilities.''
    Making advances in space weather will require a coordinated 
effort among researchers, operational institutions, government, 
academic, commercial, and international entities. The role and 
perspectives of academia are essential in this effort. While we 
were unable to include that perspective today due to unforeseen 
circumstances as Chair Fletcher noted, it's important to 
recognize the importance of academia in advancing our space 
weather capabilities.
    Madame Chair, the nation's efforts to address the threats 
of space weather demonstrate the ways in which our investments 
in NASA and basic research benefit our society. In the case of 
space weather, these investments are integral in ensuring the 
safety and operations of our critical infrastructure on the 
ground and in space.
    I look forward to hearing from our witnesses on what is 
needed to advance our nation's understanding and our ability to 
monitor, predict, and forecast space weather. Thank you and I 
yield back.

    Chairwoman Fletcher. Thank you. I'd now like to recognize 
the Ranking Member for the Subcommittee on Space and 
Aeronautics, Mr. Babin, for an opening statement.
    Mr. Babin. Thank you, Madam Chair. I really appreciate it. 
And thank you witnesses for being here. Thank you for holding 
this hearing, absolutely. Thank you, Chairwoman.
    Today's hearing is on a growing topic of national concern, 
even if it is not an issue most of our constituents might 
immediately identify with. Space weather, commonly defined, 
refers to variations in the space environment between the Earth 
and the sun due to solar activity. This is an ongoing 
phenomenon which typically has minimal consequences. However, 
it can have widespread effects such as interfering with GPS 
signals and disruptions to our electrical grid during severe 
events. We have had to be more mindful of the effects of space 
weather as we have increased our use of satellites for 
communication and remote sensing in our daily lives.
    Space weather is an issue of importance across the Federal 
Government. Agencies such as NASA and NOAA within our 
Committee's jurisdiction play an important role in increasing 
our knowledge and better monitoring space weather. However, 
it's important to acknowledge space weather as a national 
security issue. Our military has a variety of assets in orbit 
around Earth which could be potentially harmed by 
electromagnetic interference and are dependent upon satellites 
built by NASA and operated by NOAA for timely and accurate 
information.
    Both the Obama and Trump Administrations have acknowledged 
the need for better coordination of space weather-related 
activities across the Federal Government by developing and 
updating a Space Weather Strategy and an Action Plan. This plan 
covers topics about how Federal agencies should identify and 
protect infrastructure from acute space weather events which 
agencies should lead mitigation and research activities.
    Our Nation's infrastructure is not all that is threatened 
by space weather events. I proudly represent the Johnson Space 
Center, the home to NASA's Astronaut Corps. These are the 
astronauts who currently work on the International Space 
Station (ISS) more than 200 miles above the Earth's surface and 
will one day serve on missions to the Moon and Mars. While we 
have developed techniques and technology to reduce the threats 
posed by increased radiation exposure due to a severe solar 
event, we have much more work to do to mitigate these hazards 
to our astronauts.
    As the Ranking Member of the Space and Aeronautics 
Subcommittee, I've supported efforts to spur the 
commercialization of low-Earth orbit by private sector 
companies. These new entrants into the space economy have a 
vested interest in protecting their assets. However, they also 
offer an opportunity to provide data and resources to our 
Federal agencies as we seek to improve our space weather 
efforts.
    As this Committee potentially considers legislation 
relating to space weather monitoring and research, we must be 
certain that whatever legislation that we mark up is not a top-
down legislative mandate and ensures a role for the commercial 
sector. The Weather Research and Forecasting Innovation Act, 
which was passed by this Committee and signed into law 2 years 
ago, serves as a template for how we could accomplish this. The 
Weather Act took steps to integrate commercial weather data 
into NOAA's forecast models, and a similar model should guide 
us when developing space weather legislation.
    I want to thank our witnesses for taking the time to attend 
today's hearing and sharing your valuable experiences and 
expertise on this very important topic. And I look forward to a 
productive conversation on how we best move forward.
    And with that, Madam Chair, I yield back.
    [The prepared statement of Mr. Babin follows:]

    Thank you for holding this hearing, Chairwoman Fletcher.
    Today's hearing is on a growing topic of national concern, 
even if it is not an issue most of our constituents might 
immediately identify.
    Space weather, commonly defined, refers to variations in 
the space environment between Earth and the sun due to solar 
activity. This is an ongoing phenomenon which typically has 
minimal consequences. However, it can have widespread effects 
such as interfering with GPS signals and disruptions to our 
electrical grid during severe events. We have had to be more 
mindful of the effects of space weather as we have increased 
our use of satellites for communication and remote sensing in 
our daily lives.
    Space weather is an issue of importance across the federal 
government. Agencies such as NASA and NOAA within our 
committee's jurisdiction play an important role in increasing 
our knowledge and better monitoring space weather. However, it 
is important to acknowledge space weather as a national 
security issue. Our military has a variety of assets in orbit 
around Earth which could be potentially harmed by 
electromagnetic interference and are dependent on satellites 
built by NASA and operated by NOAA for timely and accurate 
information.
    Both the Obama and Trump Administrations have acknowledged 
the need for better coordination of space weather-related 
activities across the federal government by developing and 
updating a space weather strategy and action plan. This plan 
covers topics about how federal agencies should identify and 
protect infrastructure from acute space weather events and 
which agencies should lead mitigation and research activities.
    Our nation's infrastructure is not all that is threatened 
by space weather events. I proudly represent Johnson Space 
Center, the home to NASA's astronaut corps. These are the 
astronauts who currently work on the International Space 
Station more than 200 miles above the Earth's surface and will 
one day serve on missions to the Moon and Mars.
    While we have developed techniques and technology to reduce 
the threats posed by increased radiation exposure due to a 
severe solar event, we have more work to do to mitigate these 
hazards to our astronauts.
    As the ranking member of the space and aeronautics 
subcommittee, I've supported efforts to spur the 
commercialization of low Earth orbit by private sector 
companies. These new entrants into the space economy have a 
vested interest in protecting their assets. However, they also 
offer an opportunity to provide data and resources to our 
federal agencies as we seek to improve our space weather 
efforts.
    As this committee potentially considers legislation 
relating to space weather monitoring and research, we must be 
certain that whatever legislation we mark up is not a top-down 
legislative mandate and ensures a role for the commercial 
sector. The Weather Research and Forecasting Innovation Act, 
which was passed by this committee and signed into law two 
years ago, serves as a template for how we could accomplish 
this. The Weather Act took steps to integrate commercial 
weather data into NOAA's forecast models and a similar model 
should guide us when developing space weather legislation.
    I want to thank our witnesses for taking time to attend 
today's hearing and sharing your experience and expertise on 
this important topic. I look forward to a productive 
conversation on how best we move forward.
    Thank you and I yield back.

    Chairwoman Fletcher. Thank you, Mr. Babin. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    [The prepared statement of Chairwoman Johnson follows:]

    Thank you, Chair Fletcher.
    I am pleased that the committee is holding this hearing to 
examine crucial knowledge gaps that the space weather community 
is working hard to address. I look forward to continuing the 
discussion begun last Congress on how the federal government 
can leverage our research, monitoring, and forecasting 
capabilities to protect communities and limit costs to our 
economy. It is my hope to move bipartisan space weather 
legislation through the Committee this Congress that has 
support from the full space weather community.
    Though not as publicly prominent as the day-to-day weather 
generated by Earth's atmosphere and oceans, space weather also 
can disrupt lives and damage critical infrastructure. Solar 
events such as solar flares, solar wind, coronal mass 
ejections, and solar radiation storms send electromagnetic 
radiation towards Earth's atmosphere which can disrupt GPS 
function, radio and satellite communications, and our electric 
grid. Severe space weather events occur about once a decade, 
though more mild variability is routine.
    The need for research on space weather is clear, as 
fundamental scientific questions remain unanswered. Sustained 
space weather observations and monitoring are equally 
important. It is commonly said that space weather prediction is 
around 50 years behind terrestrial weather predictions; 
however, innovations such as Cubesats may be able to help 
advance space weather research and operations.
    I look forward to hearing from our expert panel to get an 
update on the state of space weather R&D, and to explore how 
Congress can facilitate high-level goal-setting and 
coordination among federal agencies, the commercial sector, and 
academia. I am delighted to see representatives from NOAA and 
NASA, the two lead agencies that carry out research, collect 
data, and generate space weather predictions, as well as a 
distinguished panelist from the commercial sector. Though our 
panelist from the academic sector was unable to make it due to 
unexpected circumstances, the contributions of the academic 
community are greatly appreciated. All three sectors do 
critical work conducting the research, making the observations, 
analyzing the data,improving the models, and bolstering the 
preparedness of technologies, industry sectors, and communities 
affected by space weather.
    As I've said before, it is important for Congress to 
continue the forward momentum of what was set in motion by the 
National Space Weather Strategy and the National Space Weather 
Action Plan in 2015. The persistent threat posed by space 
weather to our economy, which is more and more reliant on 
space- and ground-based infrastructure makes clear the need for 
additional space weather research and collaboration. Now is the 
time to put forth a legislative framework that can guide and 
successfully leverage the ongoing work on this critical issue.
    Thank you and I yield back.

    Chairwoman Fletcher. At this time I would like to introduce 
our witnesses. Mr. Bill Murtagh is the Program Coordinator for 
the NOAA Space Weather Prediction Center in Boulder, Colorado. 
In this position, he coordinates preparation and response with 
emergency managers, industry, and government entities in the 
U.S. and around the world. Previously, he worked at the Office 
of Science and Technology Policy as the Assistant Director for 
the Space Weather, Energy, and Environment Division where he 
oversaw the development and implementation of the National 
Space Weather Strategy and Action Plan. Before this, he spent 
23 years in the Air Force working as a weather forecaster.
    Next, we have Dr. Nicola Fox, the Heliophysics Division 
Director in the Science Mission Directorate at NASA. Before 
that, Dr. Fox was Chief Scientist for Heliophysics at the 
Applied Physics Lab at the Johns Hopkins University where she 
was the Project Scientist for NASA's Parker Solar Probe, the 
first mission ever sent to a star. She previously was Deputy 
Project Scientist for the Van Allen Probes and the Scientist 
for the International Solar-Terrestrial Physics program. She 
received her Ph.D. in space and atmospheric physics from 
Imperial College London.
    Finally, we have retired Navy Vice Admiral Conrad C. 
Lautenbacher, Jr. Admiral Lautenbacher is the CEO and Director 
of GeoOptics, a private company that collects and sells 
actionable Earth systems data to improve prediction and 
forecasting of weather and climate. He served as the eighth 
Administrator of NOAA during the George W. Bush Administration 
where he spearheaded the first-ever Earth Observation Summit. 
Before NOAA, Admiral Lautenbacher founded a management 
consulting business, worked in nonprofits, and spent 40 years 
in operational command and staff positions in the Navy. He 
received his Ph.D. from Harvard University in applied 
mathematics.
    For our witnesses, thank you for your written testimony, 
which will be included in the record of the hearing. You will 
each have 5 minutes for your oral testimony because your 
written testimony is already included. And when you've 
completed your spoken testimony, we will begin with questions 
from the Members. Each Member will have 5 minutes to ask 
questions of the panel.
    We will start with opening statements, and we'll start 
first with you, Mr. Murtagh.

                 TESTIMONY OF MR. BILL MURTAGH,

                      PROGRAM COORDINATOR,

             NOAA'S SPACE WEATHER PREDICTION CENTER

    Mr. Murtagh. Good afternoon, Chairs Fletcher and Horn, 
Ranking Members Babin and Marshall, and Members of the 
Committee. I am Bill Murtagh, the Program Coordinator for 
NOAA's Space Weather Prediction Center, or SWPC, in Boulder, 
Colorado.
    NOAA is the official source of U.S. Government for civilian 
space weather forecast warnings and alerts to the public, 
industry, and government agencies. We work closely with the 
U.S. Air Force, who is responsible for all DOD (Department of 
Defense) and related national security needs for space weather 
information. We work with NASA and other Federal agencies, as 
well as private industry, academia, and international partners, 
to ensure access to data and analysis that support our 24/7 
mission to deliver products and services that protect our 
society and our economy from space weather events.
    These events could drastically affect our electric power 
grid, telecommunications, our GPS-dependent technologies, 
astronauts in space exploration, and of course aviation.
    Critical to our mission operations are observations, 
forecasts and warnings, science, and partnerships. I'll briefly 
highlight each one of these. NOAA uses an array of space and 
ground-based observations, employing specialized instruments to 
support our space weather forecast operations and related 
research. NOAA operates at three viewpoints to acquire the 
space-based observations necessary to meet SWPC's operational 
requirements. In Deep Space at the Lagrange Point One (L1), 
which is located 1 million miles from Earth, we observe the 
solar wind; at geostationary orbit for key observations of 
solar flares, x-rays, and energetic particle radiation; and 
low-Earth orbit for measurements of the ionosphere. NOAA also 
leverages additional data from NASA and European satellites. 
And we're in the process of developing the Space Weather 
Follow-On program, which will provide mission continuity and 
augment capabilities at the L1 point and in geostationary 
orbit.
    Ground-based data are also important to SWPC operations. In 
particular, magnetic field observations provided by the USGS, 
which are critical to our geomagnetic storm warning processes, 
radio and solar observations provided by the U.S. Air Force and 
solar and magnetic field labs from the NSF.
    Once a solar eruption occurs, forecasters feed these 
observations into computer models to determine the likely 
effects of solar events on Earth. These models help forecasters 
estimate when the effects will begin, how long they will last, 
and how severe the event will be.
    Similar to the categories we use to classify hurricanes or 
tornadoes, there are space weather scales for communicating the 
severity of space weather storms. These scales address radio 
blackouts from solar flares, solar radiation storms due to the 
sun-emitted energetic particles, and geomagnetic storms from 
coronal mass ejected plasma and magnetic fields called coronal 
mass ejections. The scales list possible impacts for each level 
of storming and indicate how often these events might happen. 
NOAA's space weather alerts and warnings are employed by 
Federal agencies and users across many sectors to aid in 
national preparedness in response to space weather.
    NOAA is also advancing our research to operations 
processes. This includes a new program, the Earth Prediction 
Innovation Center or EPIC. EPIC will use partnerships with 
academia, the private sector, and relevant agencies to test and 
validate new capabilities and transition these capabilities 
from research to operations, thereby improving our existing 
forecast and warning capabilities.
    NOAA is also exploring with NASA the potential for a space 
weather testbed to further accelerate the transfer of research 
to operations and operations to research. Strong public-private 
partnerships are essential to maintain and approve the 
observing networks, conduct research, create forecast models, 
and supply the services necessary to support our national 
security and our economic prosperity. NOAA is committed to 
working toward the growth of the private sector as our national 
infrastructure and technological base becomes more sensitive to 
the impacts of space weather, thus demanding more improved 
space weather services. NOAA will continue to explore 
partnerships with the commercial and academic community as we 
work to maintain and improve our operational capabilities.
    In closing, NOAA appreciates the ongoing support we have 
received from Congress for our critically important space 
weather program. We will continue to work with other Federal 
agencies, the private sector in this effort to develop and 
strengthen our activities in space weather research and 
forecasting, and I look forward to answering your questions.
    [The prepared statement of Mr. Murtagh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you very much. Dr. Fox?

                  TESTIMONY OF DR. NICOLA FOX,

                HELIOPHYSICS DIVISION DIRECTOR,

          NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Fox. Chairwomen Horn and Fletcher, Ranking Members 
Babin and Marshall, and Members of the Subcommittees, it is an 
honor to appear before these Subcommittees today to discuss 
NASA's contributions to the understanding of space weather and 
its impact on society.
    Space weather is the result of complex interactions between 
the sun, solar wind, Earth's magnetic field, and Earth's 
atmosphere. Our ability to understand and predict space weather 
is of growing importance to our Nation's economy, national 
security, and of course our NASA astronauts.
    Through its Artemis program, NASA is accelerating its 
exploration plans to land the first woman and the next man on 
the surface of the Moon by 2024. To meet these objectives, we 
continue to accelerate development of the systems required to 
ensure success. The Artemis missions will send humans beyond 
the protection of Earth's magnetic field for the first time 
since Apollo and expose our astronauts and the systems upon 
which they will depend to a unique and potentially hazardous 
space weather environment.
    NASA's Heliophysics Division is working with the Artemis 
program to support the human exploration of Deep Space and on 
approaches to measure the radiation environment on and around 
the Moon. These measurements will aid in the prediction and 
validation of the radiation environment in which our astronauts 
will be subjected.
    Looking further into the future to journeys to Mars, NASA 
astronauts will need the capability to autonomously generate 
their own space weather data and predictions. To this end, the 
Heliophysics Division is working with the Space Radiation 
Analysis Group, or SRAG, at the Johnson Space Center on 
possible experiments in cislunar space to develop the science 
and technology needed for such predictions.
    Artemis holds an important potential as a platform for 
scientific research. There is intense interest in what we can 
discover at the Moon. The lunar samples returned during the 
Apollo program dramatically changed our view of the solar 
system, and scientists continue to unlock new secrets from the 
samples. Artemis missions may include installation of space 
weather instruments on the Moon, and studies of the lunar 
surface could yield significant insights into the space weather 
over long time scales. There's just so much more to learn--
knowledge that we can acquire with sustained human and robotic 
presence on the Moon.
    NASA already addresses space weather impacts on astronauts 
and spacecraft while maintaining the International Space 
Station and protecting the astronauts living there. The 
Community Coordinated Modeling Center, or CCMC, team at Goddard 
Space Flight Center works with NOAA's Space Weather Prediction 
Center to provide data and forecast to the SRAG, who can then 
assess risks to the ISS. This experience will help NASA as we 
continue how to best protect Artemis astronauts from space 
weather impacts.
    Space weather events are not only a concern for our 
astronauts and spacecraft, airline travel, communications, and 
precision navigation and timing systems like global GPS systems 
and the electrical power grid on which we depend every day can 
be impacted by space weather. The NASA Heliophysics Division 
continues to study the sun and how it influences the very 
nature of space, the atmospheres of planets, and in the case of 
Earth, the technology that exists in low-Earth orbit and on the 
surface.
    The extensive dynamic solar atmosphere surrounds the sun, 
Earth, and planets and extends far out into the solar system. 
Mapping out this interconnected system requires a holistic 
study of the sun's influence. NASA has a fleet of spacecraft 
strategically placed throughout our heliosphere from Parker 
Solar Probe nearest the sun observing the very start of the 
solar wind, to satellites around Earth, including the 
Ionospheric Connection Explorer, or ICON, mission, which 
launched earlier this month, to the very farthest human-made 
objects, the Voyagers, which are still sending back 
observations on interstellar space. Each mission is positioned 
at a critical well-thought-out vantage point to observe and 
understand the flow of energy and particles throughout the 
solar system, and each provide a very different view of the 
complex system that leads to the space weather that we 
experience.
    The research carried out by NASA's Heliophysics Division is 
improving our understanding of space weather. Working as the 
research arm of the Nation's space weather effort, NASA 
coordinates with NOAA, the National Science Foundation, and the 
U.S. Geological Survey, and of course the Department of 
Defense. NASA is also a member of the Space Weather Operations 
Research and Mitigations interagency working group run by the 
National Science and Technology Council, which coordinates 
interagency efforts to carry out the actions and meet the 
objectives identified in the Space Weather Strategy and Action 
Plan.
    In support of the Nation's space weather effort, the 
Heliophysics Division has established the Space Weather Science 
and Applications, or SWxSA program, in collaboration with our 
sister Federal agencies, academia, and industry. The goal of 
this program is to effectively support the transition of 
heliophysics science results to applications that support our 
user communities and to provide improvements in space weather 
prediction models such as those used by SWPC. This activity 
also supports the interagency space weather efforts and is 
consistent with the recommendations of the 2013 decadal survey.
    Furthermore, in coordination with NOAA, we have initiated a 
pilot program to expand the interagency capability and improve 
space weather products and services. We meet regularly with 
NOAA to develop this shared framework for research to 
operations, and as this matures, we will further integrate NSF, 
DOD, academia, and the private industry.
    NASA really appreciates the continued support from these 
Committees, which ensures that the United States maintains a 
superior position in understanding space weather and is 
prepared to respond to space weather events. We look forward to 
continued collaboration with our sister agencies, international 
partners, academia, and industry, and I thank you very much for 
your invitation to be here with you. And I'm happy to answer 
any questions.
    [The prepared statement of Dr. Fox follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fletcher. Thank you, Dr. Fox. Admiral 
Lautenbacher?

          TESTIMONY OF DR. CONRAD C. LAUTENBACHER, JR.,

       CEO OF GEOOPTICS, INC., AND FORMER UNDER SECRETARY

              OF COMMERCE FOR OCEANS AND ATMOSPHERE

               AND NOAA ADMINISTRATOR (2001-2008)

    Adm. Lautenbacher. Good afternoon, Chairman Fletcher and 
Chairman Horn, Ranking Members Marshall and Babin, and 
distinguished Members of the Subcommittees. It is my honor to 
appear before you today at this important hearing to discuss 
advancing research, monitoring, and the forecasting 
capabilities for space weather.
    GeoOptics has been fulfilling its NOAA NESDIS (National 
Environmental Satellite, Data, and Information Service) 
contract under the Commercial Weather Data Pilot, CWDP, program 
and has successfully delivered over 350,000 high data accuracy 
GPS radio occultation profiles by the end of September 2019. 
Having successfully demonstrated our data, we look forward to 
NOAA NESDIS soon announcing its commercial data buy program.
    Our success in demonstrating our technical capability to 
NOAA NESDIS would not have been possible without the leadership 
and support of many on this Committee and especially 
Congressman Frank Lucas, Congresswoman Suzanne Bonamici, and 
former Congressman Jim Bridenstine for their support of the 
Commercial Weather Data program in the Weather Research and 
Forecasting Innovation Act of 2017.
    Our founder Tom Yunck originally proposed the GPS-RO (radio 
occultation) technique in 1988 and oversaw the development and 
improvement of the world's leading capability at the Jet 
Propulsion Laboratory known as JPL. Over the last decade, a 
series of government-funded satellites have refined the RO 
technology and proven out its tremendous capability. GeoOptics 
CICERO, which stands for Community Initiative for Cellular 
Earth Remote Observation, nanosatellites, is the only U.S.-
based RO provider with the JPL gold standard for some of the 
most accurate weather and climate data available, offering 
significantly more impact per measurement than traditional 
weather instruments.
    We have worked with our partners at the Jet Propulsion 
Laboratory and Tyvak Nano-Satellite Systems to commercialize 
and miniaturize this technology. By launching smaller, less 
expensive satellites, we will be able to make orders of 
magnitude more data available to weather forecasters and 
scientists around the world. And our pledge to the scientific 
community is that all CICERO data will be provided free for any 
research purpose.
    Radio occultation data provides high-resolution temperature 
and water vapor profiles by getting measurements of bending 
angle profiles in the troposphere and the stratosphere with 
high vertical resolution and accuracy. The measurement of 
bending angles can be used to obtain information on 
refractivity profiles which can be used to retrieve atmospheric 
temperature and humidity profiles, as well as surface pressure. 
Another objective is to provide space weather information 
through measurement of electron density and its profile in the 
middle and high atmosphere.
    There is a robust interest from other private-sector space 
weather technology companies to work with Federal agencies to 
develop and implement solutions to deal with space weather. For 
example, GeoOptics is a member of the American Commercial Space 
Weather Association, commonly known as ACSWA, which is 
comprised of 19 member companies with the common goal of 
developing, delivering, and sustaining key space weather 
products and services to mitigate threats to societal 
infrastructure.
    ACSWA plays an essential role in the academic, 
governmental, commercial triad that forms the space weather 
enterprise. ACSWA companies provide the insight, innovation, 
and cost benefits to our Nation's preparedness and 
responsiveness to space weather threats. ACSWA is a collective 
voice for the commercial space weather sector and an advocate 
for the enterprise.
    Since its inception in 2010, beginning with five companies, 
ACSWA has quadrupled in size. ACSWA serves as a catalyst for 
collaboration between various organizations and the commercial 
space weather industry. ACSWA works with government agencies, 
academia, and industry stakeholders to strengthen the space 
weather enterprise and to promote space weather, space weather 
partnerships, and public commercial initiatives.
    Last year, NOAA NESDIS issued its final report of the NOAA 
Space Platform Requirements Working Group, the SPRWG, in 
support of the NOAA Satellite Observing System Architecture 
study. As a part of this study, NESDIS initiated the Space 
Platform Requirements Working Group, commonly known as the 
SPRWG, to evaluate the future needs and relative priorities for 
weather, space weather, and environmental remote sensing, 
including land mapping, space-based observations for the 2030 
timeframe and beyond.
    One has only to look at the ranking of the space weather 
measurements that were identified by leading NOAA and 
university research scientists in the SPRWG report and compare 
them to the technological capabilities offered by ACSWA 
members.
    Increased investments are needed from Congress to continue 
to fund the commercial data buy program for GPS R.O. data that 
benefit nowcasting and commercial weather prediction. Congress 
should also consider a commercial space weather data program 
for commercial sectors to provide cost-effective solutions for 
the challenges of space weather as defined in the NOAA SPRWG 
report.
    The American Commercial Space Weather Association and its 
member companies look forward to working with Congress and 
Federal agencies in advancing their knowledge and understanding 
of space weather. Thank you for your consideration. I will do 
my best to address any questions you may have. Thank you.
    [The prepared statement of Adm. Lautenbacher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      WRITTEN TESTIMONY OF DR. HARLAN E. SPENCE, DIRECTOR,

      INSTITUTE FOR THE STUDY OF EARTH, OCEANS, AND SPACE,

             AND PROFESSOR OF PHYSICS AND ASTRONOMY,

                   UNIVERSITY OF NEW HAMPSHIRE
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairwoman Fletcher. Thank you very much. At this point we 
will begin our questions. We'll begin our first round, and I'm 
going to start recognizing myself for 5 minutes.
    First question really goes to solar wind data and DSCOVR, 
so NOAA's Deep Space Climate Observatory, or DSCOVR, satellite 
is a partnership between NOAA, NASA, and the U.S. Air Force to 
provide real-time solar wind data and to succeed NASA's 
Advanced Composition Explorer or ACE satellite, which is beyond 
its expected lifetime. It was launched in 2015 with an expected 
lifetime of 5 years but has been in a safe-hold mode since June 
of this year and is no longer transmitting data, leading NOAA 
to revert back to collecting solar and wind data from ACE.
    Mr. Murtagh, how critical are real-time solar wind 
observations to the development of space weather forecasts?
    Mr. Murtagh. They are indeed critical. We consider those 
measurements at L1; it's our sentinel in space. When the 
coronal mass ejection leaves the sun, we can see--other 
instruments we use to observe it, that it's actually--or 
directed. We really can't dissect it. We don't know what's in 
that CME (coronal mass ejection) until it hits the L1 point. 
And key to the measurements at L1 is the orientation of the 
magnetic field because what the sun just shot out into space 
was a magnet. A coronal mass ejection is a big magnetic field 
and Earth is a magnetic field. The two magnetic fields are 
going to come together, and how they couple together is going 
to dictate how intense the geomagnetic storm response will be.
    Once it passes that spacecraft, we have a sense for exactly 
what the field is going to look like, and we immediately 
notify, especially the electric power grid operators around 
this country, just how big the storm is likely to be. So we 
depend on that absolutely.
    Chairwoman Fletcher. And this is a question for you and for 
Dr. Fox. What other avenues of receiving solar wind data are 
available if NOAA is unable to get DSCOVR back online and the 
ACE satellite stops transmitting data?
    Mr. Murtagh. None really. We are essentially blind if we 
lose the ACE data and the DSCOVR data.
    Chairwoman Fletcher. Dr. Fox, do you want to weigh in on 
that?
    Dr. Fox. So we would be blind until 2024. In 2024, NASA 
will launch the IMAP (Interstellar Mapping and Acceleration 
Probe) mission, which is a mission really dedicated on looking 
at the outside of our heliosphere and the boundary to 
interstellar space. But we will carry with us the NOAA Space 
Weather Follow-On L1 observatory as a rideshare. And so once 
we're out there in orbit, then that gap would be filled, but 
Bill is completely correct. Between those two events, there 
really is no way of getting anything out there either.
    Chairwoman Fletcher. OK. And are there any other long-term 
contingency plans for getting solar wind data beyond what 
you've described, either this program in 2024 or the existing 
data collection mechanisms?
    Mr. Murtagh. Yes. It's fortunately very much recognized by 
NOAA the importance of this data. So we're pursuing, as Dr. Fox 
just mentioned, a 2024 launch, but we've also just released a 
Broad Area Announcement to the world, if you will, where we 
want to look at what we should have as a follow-on. So we've 
already begun the process of looking at what we need to have up 
there after the IMAP mission.
    Chairwoman Fletcher. OK. Thank you. Switching gears a 
little bit, I do want to talk with the remaining time I have 
left about our investments in space weather and want to ask in 
your estimation what is the current Federal investment in 
research compared to operations for space weather? And what 
should the ratio of investment be in order to substantively 
improve our forecasting capabilities?
    Mr. Murtagh. So I would say our budget at SWPC is about $11 
million or thereabouts, but one has to recognize that a 
considerable amount of funds go to the observation platforms 
within NOAA both at the DSCOVR, the L1 commitment, and of 
course our spacecraft at geosynchronous orbit also very, very, 
very much critical for the provision of space weather services 
for the Nation.
    I think an awful lot of money goes toward the research, but 
so it should. You may have heard in the past about us being 
about 30 to 50 years behind the meteorology community. It's 
largely because the fundamental research necessary to better 
understand the processes of the sun and the eruptions on the 
sun and how they interact with the Earth, there is so much 
research still necessary to get us where we need to be.
    Chairwoman Fletcher. OK. Dr. Fox, do you want to weigh in 
on that before we wrap up?
    Dr. Fox. Also the sheer space that we have to cover is very 
different. The sun is 93 million miles away, and there is a--
you know, so it is easy to say we are behind the terrestrial 
weather, but there is an awful lot more space to cover which 
makes it very important for us to have continued measurements 
covering that full area.
    Chairwoman Fletcher. Thank you so much. And I have gone 
over my time, but I thank you for your answers to my questions. 
And I will now recognize Mr. Marshall for 5 minutes.
    Mr. Marshall. Thank you, Chairwoman. My first question for 
Mr. Murtagh, I mentioned in my opening statement the importance 
of precision agriculture, precision agriculture for Kansas 
farmers and ranchers and the dependence upon data from 
satellites in orbit. Has NOAA reached out to any agriculture 
groups, any opportunities there that you would like to educate 
us on?
    Mr. Murtagh. Yes. Perhaps I could answer that with a little 
story. Five or 6 years ago we got contacted by a company that 
develops the machinery for our farming. And we'd had a space 
weather event a few weeks earlier, and they got all sorts of 
calls from their customers trying to figure out why their GPS-
dependent technology was not working so well. The company 
realized there was a space weather event. They reached out to 
us. They said could we get the information to them and they in 
turn would redistribute it to all their customers.
    And we saw that as a great way of doing it, so we followed 
up with them and others as much as we can, the folks that make 
the machinery, that make the equipment that goes into that 
machinery, the GPS-dependent equipment, and let them distribute 
the information to all the users. And we know it's worked 
because we have this product subscription service with over 
50,000 subscribers right now. And when I look at that, as I do 
every month with the several hundred new subscribers, I will 
see lots of different farming groups signing up for the alerts 
and warnings. So we've got the word out there. I think we can 
do more.
    Mr. Marshall. So are you able to predict those an hour 
before, a day before, a week before?
    Mr. Murtagh. So what they're most concerned about is 
impacts on the atmosphere typically associated with geomagnetic 
storms, so when we see the eruption on the sun, we can 
typically give them a 1- to 3-day notice that something's going 
to be coming up and something's going to be disturbing the 
ionosphere, stay tuned because they can----
    Mr. Marshall. Yes.
    Mr. Murtagh [continuing]. Plan their farming for tomorrow 
and get a warning from us and say we'll postpone that activity 
until the next day.
    Mr. Marshall. And typically they're knocked out for a day 
or two or----
    Mr. Murtagh. Sometimes just hours, but on the big storms--
and sometimes we have an outbreak--October 2003 comes to mind--
where this storm, we went down and out for about 2 weeks, so we 
like to get that information continuously flowing into the 
agricultural groups, knowing, be careful if you use your GPS 
and you're expecting precision navigation or precision 
measurements because it may not be there.
    Mr. Marshall. OK. Admiral Lautenbacher, what are the ideal 
roles for the Federal Government, the academic community, and 
the commercial sector in developing strategies to address 
severe space weather events?
    Adm. Lautenbacher. I think it's very important that we have 
an architecture that sets up the joining and melding of these 
great assets that we have in the United dates. When you look at 
the government, the government has to make the rule sets so 
that the playing field is fair. And so that needs to be--and 
government has--the only people that can do that. Nobody else 
can do that. The rest of it is competition.
    Academia is needed for government investment in the 
research, as you just heard, and that has to go on, and that's 
mostly done in our academic world. So we are dependent upon 
that.
    And when you get to the commercial sector, you have the 
ingenuity and the experience of working to provide very 
efficient solutions to the research that's been invented and 
the needs of the space production centers. And if we put that 
together in that way and have a comprehensive combination of 
those forces, we can do much better than we do today.
    Mr. Marshall. OK. Yes, I yield back. Thank you.
    Chairwoman Fletcher. Thank you very much. I'd now like to 
recognize Ms. Horn for 5 minutes.
    Chairwoman Horn. Thank you, Madam Chair. This is incredibly 
important, glad we're having this conversation. As I mentioned 
in my opening statement, I want to turn to a couple--more 
discussion, and this is a question for all of you, a couple of 
questions about the gaps so we can better understand as we 
address these issues. The bottom line I think is we have to do 
what's necessary to protect our space assets. We've covered 
many reasons from farming to our communications, our electrical 
grid, and our national security.
    So in looking at these risks to our infrastructure, I'd 
like to hear from each of you briefly what are the biggest gaps 
in our space weather forecasting capabilities, and what we 
should prioritize to make the biggest impact in reducing these 
gaps.
    Mr. Murtagh. There are so many unfortunately. I refer to 
them as the holy grails when I talk to our colleagues in the 
science community. One is simply this. Again, I'll give you an 
example. It was October 17, 2003. I'm on the forecast desk and 
looking at the sun. There's no sunspots. We need sunspots 
typically if we're going to have big activity. I've got 
customers asking what is space weather going to look like for 
the next week. I say, well, pretty darn calm-looking right now.
    One week later we had three Jupiter-sized sunspot clusters. 
That's about 10 times the diameter of Earth on the sun. These 
were intense Carrington-like very large complex sunspot groups. 
The bottom line is this. We have no real ability to predict 
that's going to happen. If we could only understand a little 
bit about when these sunspots are going to emerge, and when 
they do start growing, when are they going to stop growing 
because that happens sometimes, too. We'll have them grow in 1 
day, 2 days later, and then it's gone, but it is a big, big 
limitation. People ask us what's going to happen a week or two 
from now. Well, we really don't know at solar minimum, not much 
sunspot activity, solar max, but we cannot forecast those 
sunspots.
    And one last piece, when the sunspots do emerge and we know 
there's potential for big eruptions, 5 minutes prior to the 
eruption, we don't know it's about to occur. So there are 
significant limitations. And I limited my comments to the sun. 
I could share all the way down to Earth with some of the 
serious challenges we face.
    Dr. Fox. So I would say, you know, NASA is really 
addressing a lot of these gaps by putting up the new missions. 
Parker Solar Probe of course brings to mind as now being the 
first mission to a star that is really going in and helping us 
to unlock exactly this area that Mr. Murtagh was just talking 
about, which is how do these sunspots, what is the structure of 
them, and the only way to really do that is to go and study 
them up close. And so we are certainly making big strides to 
close those gaps.
    I do think that we need to do a continued effort to 
transition our scientific models into operational platforms, 
which we're working incredibly closely with our colleagues at 
NOAA to do that. We talked about the framework and the testbeds 
to really take advantage of all of the stuff that we are doing 
in the NASA Heliophysics Division and really taking benefit of 
all of that amazing science research and getting it into the 
operational community.
    Adm. Lautenbacher. The gaps that we have today could leave 
us in very big trouble in the United States. A Carrington event 
today as opposed to when it actually occurred would be 
disastrous, worth maybe $20 billion just to think about trying 
to recover the power systems that we have, all of the wonderful 
television and radio and computer connections and our entire 
energy system would be devastated. And to even imagine--to try 
to recover that is huge. So these gaps are not meant--you know, 
a number of gaps cause that issue.
    We really need to work on the plans that we built. And I've 
got right here a copy of the SPRWG study, which has illustrated 
what we need to do in here in terms of the type of measures we 
need to take, the type of instruments we need to have, and we 
need to get the money and the support to do this. Thank you.
    Chairwoman Horn. Thank you all. I just have a few seconds 
left, so I'll keep this short, but I think it's an important 
piece to touch on, and that is determining the difference 
between space weather and artificial or manufactured events, 
especially in the area of our national security. How much are 
we able to distinguish between those? And because of time, Mr. 
Murtagh, I would just direct that to you. Where are we in that 
capability, and what do we need to do to address that big 
question?
    Mr. Murtagh. Well, certainly it's one of the reasons we 
really want to make sure we get our information and data out. 
We work globally. Space weather has a global effect, so when 
one of these big space weather events happen, we want everybody 
to know it is in fact a natural environment that's causing the 
problems. So it's just a key element in the process here is to 
make sure people have the situational awareness. And obviously 
the DOD has their own capabilities to sense when it's not 
natural, so----
    Chairwoman Horn. Thank you. I yield back.
    Chairwoman Fletcher. Thank you. I'll now recognize Mr. 
Babin for 5 minutes.
    Mr. Babin. Thank you, Madam Chair. You all have already 
touched on some of this, but with advance warning, Mr. Murtagh, 
with advance warning, what can we do on Earth to prevent a 
major catastrophe such as an electric power outage? You can't 
really tell in advance. What can we do to harden our systems 
down here? We've been talking about this for years, and I'm not 
sure we've yet taken it seriously from a national security 
standpoint. Can you address that?
    Mr. Murtagh. Yes, I think the Federal Energy Regulatory 
Commission stepped in some years ago to essentially advise the 
industry that this was a real threat and then direct standards. 
So the power industry, there's essentially two pieces to it 
here. One is the engineering solution, so they are exploring 
opportunities to harden the various components of the grid, so 
a lot of work underway right now on them trying to do just 
that.
    The second piece is the operational response, and that is 
essentially that we get the alerts and warnings out to them, 
and they understand what to do with information. So again, 
that's really an awful lot of work just in the past several 
months and years to address that threat. So we're coming at it 
at kind of a two-prong approach, the engineering solution and 
the operations response. But I think because government and 
FERC, the Federal Energy Regulatory Commission, did step in and 
mandate these activities, things are happening.
    Mr. Babin. That's good. I'm very glad to hear that. And, 
Dr. Fox, are astronomy and heliophysics the same thing, and if 
not, what are the differences and which discipline should lead 
to space weather activities as it pertains to research and 
operations?
    Dr. Fox. So the sun is a star, as we all like to say, and 
so there's a lot of overlap between astronomy and heliophysics. 
But heliophysics is really focused on the study of our star, 
our sun, and its impact on Earth. Both, you know, high up and 
very close down to us, all the technology that we really rely 
on is--sort of lives in the heliophysics neighborhood. But it's 
extremely important as we move to look for exoplanets and 
habitability around other stars, you know, heliophysics and 
astro are very linked there because what you can learn about 
our star in our--kind of in our backyard is then applicable to 
other astrophysics systems. But heliophysics really is the 
science research arm of the national space weather program.
    Mr. Babin. Thank you very much, fascinating. And Admiral 
Lautenbacher, how important is space weather, just a general 
question, but how important is space weather to our national 
security?
    Adm. Lautenbacher. It's a lot more important than most 
people think, I got to tell you. Yes. It's incredibly 
important. In the problems we would have with a natural attack 
if you want to call it that with the--with our power grids and 
our electronics that run the world today would just stall 
things----
    Mr. Babin. Yes.
    Adm. Lautenbacher [continuing]. Where they are. We need to 
have a lot more people in all sectors understand what that 
means because we're talking about a whole society. We're not 
talking necessarily about one store or one powerplant. We're 
talking about months to try to get powerplants back online and 
all of the things that we use to control the manufacturing, our 
food production, all of the relationships we have between 
companies and governments and the basic items that are needed 
for life are absolutely in the mix on this. So we need to take 
this very seriously. We need to get more people involved. The 
private sector has a lot to offer and so do all the agencies. 
They need to be put together in these plans which have been put 
together with experts, and we need to fund them and support 
them.
    Mr. Babin. Yes, sir. Thank you very much. One more 
question, and this is for you Admiral. How is the space weather 
information collected by NOAA shared with the general public 
and the private sector, and how can NOAA better serve non-
Federal organizations that may be interested in space weather 
forecasting information? Admiral?
    Adm. Lautenbacher. Yes. I thought that was for someone 
else.
    Mr. Babin. OK. No. You want me to repeat it?
    Adm. Lautenbacher. Please----
    Mr. Babin. Sure.
    Adm. Lautenbacher [continuing]. Because I didn't hear the 
first part.
    Mr. Babin. How is the space weather information collected 
by NOAA, and how is it shared with the general public and the 
private sector, and how can NOAA better serve non-Federal 
organizations that may be interested in space weather 
forecasting information?
    Adm. Lautenbacher. I got it.
    Mr. Babin. OK.
    Adm. Lautenbacher. And why I checked out was you said NOAA. 
I was last head of NOAA in 2008.
    Mr. Babin. OK.
    Adm. Lautenbacher. So I thought that would go to Bill. But 
anyway, that's OK. Because he's----
    Mr. Babin. Well, I'm out of time, so whoever wants to 
answer that can.
    Adm. Lautenbacher. Yes, Bill, do you want to try it because 
you're here. I am not current. I'm exactly what NOAA is doing 
in all of the things. I can tell you what I'd like to have them 
do but I'm not current on that. Bill maybe more current than I 
am right now.
    Mr. Babin. I'm out of time so just very rapidly if you 
don't mind.
    Mr. Murtagh. Yes. Well, we have a policy in NOAA to make 
sure this data is made publicly freely available to all, so we 
have different systems, ground-based systems to bring down the 
space weather information, and we redistribute it. We process 
it and redistribute it and make it available, pretty much 
everything we do to everybody out there.
    Mr. Babin. Right. OK. Thank you. I yield back.
    Chairwoman Fletcher. Thank you. I'll now recognize Ms. 
Bonamici for 5 minutes.
    Ms. Bonamici. Thank you so much. Thank you to our witnesses 
for your testimony and your expertise. I noticed when Dr. Babin 
made his opening statement he made a comment about how space 
weather might not be at the top of the minds of our 
constituents. It didn't come up in any of my townhall meetings, 
but I think if you said to people what if there was something 
that would disrupt your power, affect flights, your GPS 
wouldn't work, I think they would all be very, very concerned.
    And we know that space weather has the potential to affect 
our planet, our economy, everything so instantly. And as we 
continue to rely on infrastructure like electric power grids 
and aviation satellites and global navigation satellite 
systems, and as we promote greater exploration of space, I 
think we become more susceptible to the effects.
    So last year when we held a hearing on space weather, it 
was revealed that the United States is probably decades behind 
the forecast capabilities for terrestrial weather predictions. 
And we don't have the capabilities to prepare ourselves before 
an event occurs. And when you look at the cost of preventing an 
impact, it's probably quite low compared to recovering from an 
event.
    So, Mr. Murtagh, in your testimony you talked about the 
space weather scales and determining the relative severity of 
space weather storms. And last Congress I worked with Ranking 
Member Lucas on the Weather Research and Forecasting Innovation 
Act. Thank you, Admiral Lautenbacher, for your mention. We had 
extensive conversations in this Committee about how weather 
forecasts don't serve the needs of the public unless they're 
effectively communicated.
    So following up actually on the conversation you were 
having with Dr. Babin, the stakes seem even higher for space 
weather events. So how does NOAA balance communicating the 
urgency of space weather events but also recognizing the level 
of uncertainty that persists in forecasting these events?
    Mr. Murtagh. So we absolutely prioritize getting the 
message into the hands of the right people first. It's a 
business where if we do all the right things, in other words we 
detect, we observe the incident, we predict it correctly, we 
get the information into the hands of the power grid operators, 
they take action and nothing happens because everything worked 
right. So we've got to get the information into the hands of 
the satellite operators, grid operators. That is our number one 
priority.
    We do also recognize the fact that social media, while it's 
great in so many ways, it could be really hell during a space 
weather event.
    Ms. Bonamici. Right. Right.
    Mr. Murtagh. And so one of the things we do as quickly as 
we can is initiate--and we worked this through the Comms office 
at National Weather Service and NOAA is to initiate a media--
not a press--it would be a press call and a media call, tele 
call. We'd bring in about 100-plus I think on the last time we 
activated that. And we try to get the messaging out. We try to 
use the mainstream media to get good information out there 
because all sorts of things are going to be said.
    Ms. Bonamici. Sure.
    Mr. Murtagh. And our website's going to have the 
information, but who's going to be running to SWPC, right?
    Ms. Bonamici. Right. Right. I think the last time I asked 
about risk management and event risk management, and, you know, 
there are vulnerabilities in those systems, as we know.
    I want to ask Dr. Fox a question. What I really want to ask 
you is what's on your shirt, but I am going to ask you--is that 
the most important question of the hearing? Is it something 
related to space weather?
    Dr. Fox. So it's Parker Solar Probe. And in my defense I'm 
giving an IAC (International Astronautical Congress) lecture at 
6 p.m. on Parker Solar Probe.
    Ms. Bonamici. Perfect.
    Dr. Fox. So I'm kind of dual dressed----
    Ms. Bonamici. Perfect.
    Dr. Fox [continuing]. Today.
    Ms. Bonamici. That's perfect.
    Dr. Fox. I apologize.
    Ms. Bonamici. Thank you. So, Dr. Fox, in your testimony you 
highlighted several key missions that will help map out the 
interconnected system and provide a holistic assessment of the 
sun's influence. So following up on the conversation about gaps 
in research, what do we need to fill them? I think 
Representative Horn asked about what the gaps were. How can 
Congress help fill those gaps? What are the best ways to do 
that?
    Dr. Fox. So, I mean, I think one of the really nice things 
about being the Heliophysics Director is all the science that 
we do really does have a public purpose. You know, it really is 
easily translatable. There is a reason that we do it. It's 
really, really cool science, it's really great research, but 
there's always this human benefit because we are looking at the 
impact of our closest star on us here at Earth.
    So we do continue to launch new missions. We are very 
thoughtful about the new missions that we select through our 
Explorer program and through some of our strategic programs, 
and we of course really, really do look to the National 
Academy. So as we move into our next decadal to be looking at 
better helping us to really, you know, put the science where it 
needs to be. And so really keeping the focus on the importance 
of space weather and the importance of heliophysics as a 
discipline is really critical.
    Ms. Bonamici. And in my last few seconds, is there 
agreement on where the gaps are among everyone here? Does 
everybody agree where the gaps are, and then we have to figure 
out how to fill them?
    Dr. Fox. So I think probably any scientist will tell you 
the gap is in their favorite area of science, but, I mean, 
really understanding the star so really exactly what Mr. 
Murtagh said, you know, going in and understanding those 
sunspots, that's the key that, you know, understanding how they 
form and then better being able to say, oh, that one, I've seen 
that before, that one's going to do this tomorrow. And you 
really can only do that going in and really understanding the 
star.
    Ms. Bonamici. Thank you.
    Mr. Murtagh. And we do work very closely together.
    Ms. Bonamici. Perfect.
    Dr. Fox. We do.
    Ms. Bonamici. My time is expired. Thank you. I yield back.
    Chairwoman Fletcher. Thank you. I'll now recognize Mr. 
Posey for 5 minutes.
    Mr. Posey. Thank you, Madam Chairs and Ranking Members, for 
holding this very important meeting. I think space weather is 
one of the most under-prioritized subjects that we have in 
Congress.
    We heard from a panel previously that we missed a solar 
interruption, or CME that you call it, a couple years ago by 1 
week on our orbit that would have knocked out all our 
satellites, killed all our power grids, and they couldn't even 
quantify the damage other than to say it would have been 
catastrophic.
    There was a book written about a similar knocking out of 
our grid called One Second After. I don't know if any of you 
all have ever read that book before, but it's just frightening. 
And that was written from reports that Members of Congress have 
received on the EMP threat, same effect as we've had from those 
huge solar eruptions.
    And so a question that I have for you is, you know, what 
plan does our government have in place if our satellites or 
spacecraft detected a geomagnetic storm headed right for us?
    Mr. Murtagh. So it would depend of course on which sector 
we're talking about. When a big event is coming, we're in touch 
with the satellite operators around the world, power grid 
operators, the aviation dispatchers, and they'll reroute the 
flights away from the poles and whatnot.
    But the key right now, there's an effort underway within 
the Space Weather Operation and Research Mitigation Working 
Group at OSTP (Office of Science and Technology Policy) to 
define benchmarks where we want to say how big is big so we can 
protect against that level? Because that's kind of where we're 
at right now, the step is we've got to recognize that number, 
that value, and then work with industry to take the appropriate 
steps.
    It's happening already to some degree obviously with the 
power grid. We have given them a number, the volts per 
kilometer. If we get to this value, you need to assess will you 
survive. They are doing that right now. They'll understand 
which equipment is vulnerable and then take action to protect 
it. So hopefully in the coming not-too-distant future, we get 
to a place where we think that they can withstand almost 
Carrington-type event. So we're working on getting there 
because we know a lot about this storm. We didn't 20 years ago. 
We do now, and we're working toward mitigating, hardening the 
system if you will, to withstand one of these big events.
    Mr. Posey. Yes, I've noticed industry hasn't had much 
interest in hardening. Industry is interested in bottom-line 
and bonuses for the next fiscal year.
    Mr. Murtagh. Yes.
    Mr. Posey. What do you think we should do to overcome that?
    Mr. Murtagh. Well, I think that--and I mentioned this 
already--FERC (Federal Energy Regulatory Commission) stepping 
in and telling them, directing them to do this assessment, what 
was critical. And where it's difficult is not in the high-
latitude States. States that border Canada recognize this 
threat because they experience it quite regularly. It's the 
mid-latitude States and the lower-latitude. Those folks could 
have been there for 40 years working that system and they'll 
say, why am I worried about this, I've never seen this before? 
We haven't had an 1859 event since 1859.
    Mr. Posey. Right.
    Mr. Murtagh. So the only way really to get them motivated 
to move and do the right thing is largely I feel with FERC 
stepping in and----
    Mr. Posey. Yes. Besides the outages that caused Quebec to 
lose their power for about 9 hours, what other ones are we 
aware of? Are there a bunch of other minor ones?
    Mr. Murtagh. Yes, there was--so actually--yes, there was--
we go back to 1859 for that big event. In 1921 there was a 
paper published just last month suggesting that the 1921 storm 
might have been as big as Carrington, and that 1921 storm was 
the one that caused the fires in railway--they call it the 
Railway Storm because it actually caused fires in downtown 
Manhattan in the railway station due to the induced current. So 
there was that one and the one you mentioned in July 2012, 
which was a near miss. So there are three or four Carrington-
class events. There has been many, many others. The Bastille 
Day events that Dr. Fox just whispered in my ear was a big one 
that occurred in 2000. There was the 2003 event that brought 
the grid down in Malmo, Sweden, and damaged many transformers 
in the Eskom network in the South Africa. So I could go on and 
on with a list of these things.
    Mr. Posey. Obviously, the research is important to the 
survival of our species. You know, what effect do you think 
would have globally if the 1859 event happened today?
    Mr. Murtagh. Well, I think it would be significant in many 
ways obviously. Again, depending on which sector--a huge part 
of this whole national strategy and action plan that was 
referenced already is to--one of the first big part of that is 
assess the vulnerability of our critical infrastructure. We're 
in the process of doing that now. To get to a point where we 
can accurately answer your question is just what would happen 
if we got this level of storming? We have still a lot of work 
to do to understand that vulnerability.
    Mr. Posey. OK. Thank you. So we really don't know.
    And, Madam Chair, thank you for letting him answer the 
question.
    Chairwoman Fletcher. Thank you, Mr. Posey. I'll now 
recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Chairwoman Fletcher, and thank you, 
Chairwoman Horn, both of you for holding this hearing, and 
thank you for the witnesses for joining us today.
    Space weather may seem like a far-off topic, but it has 
many implications, as we all know, for our lives on Earth. Our 
ability to monitor and predict space weather events hinges on 
our continued support for research, for the workforce, and for 
innovative collaboration.
    This past August, the new NOAA USGS model for electric 
power grid operators went live. This map illustrates regional 
electric field levels in the U.S. using near-real-time data to 
show the extent of space weather impact that could affect the 
power grid.
    So, Mr. Murtagh, since its launch, to what extent has the 
map been useful to grid operators in mitigating the impacts of 
space weather on critical infrastructure?
    Mr. Murtagh. Not much use yet just because we haven't had 
anything happen since its release. However, we think it's a 
huge step forward, and I'll tell you why. When SWPC issues a 
warning on the scales we talked about, G4--it's a geomagnetic 
storm, emphasis on geo, meaning it's an Earth storm. But the 
folks in this Nation that operate the grid want to know is what 
about where I live? What's going to happen? What's going to 
happen to greater New York City versus San Francisco?
    And this new geo-electric field is going to provide that 
kind of information, not on the magnetic field but the actual 
electric field that develops so they can calculate the current 
that's going to be introduced into their system, that D.C. 
current that they don't want to have to deal with this product 
is going to provide us. So we envision this thing--this model 
running operationally 24/7 in grid centers around this country.
    Mr. Tonko. And in regard to the improvements there, what 
outreach has occurred to ensure that stakeholders are aware of 
the development of the opportunity?
    Mr. Murtagh. So, fortunately, there's the North American 
Electrical Reliability Corporation in Atlanta that are 
essentially responsible for enforcing the standards that came 
from FERC. Within that group, which involves all of industry, 
there is a GMD, a geomagnetic disturbance task force. We are a 
big part of that. Every meeting, which is about quarterly, 
we're in there updating them with this information and advising 
them when it's available, and when it is available, we let them 
know when it was distributed to everyone so we know it went to 
every grid, electric power generation and transmission entity 
across this country and Canada.
    Mr. Tonko. Thank you. And to both you, Mr. Murtagh and 
Admiral Lautenbacher, what economic and social science research 
exists that might help us understand the potential impacts on 
different sectors of our economy in regard to the economic and 
social research being done?
    Mr. Murtagh. Shall I? There was--I think it was referenced 
once already, NOAA sponsored a report recently. It's online. 
It's published a couple years ago. The Abt Associates was the 
company that did it, which is essentially--we asked them to 
give us a sense of the potential economic impact on the various 
sectors from an extreme space weather event.
    So that document was released, and someone referenced a $20 
billion impact. That was a number associated with a grid 
outage, a 9-hour outage in a relatively small area in this 
country due to a geomagnetic storm. So that document has helped 
as a good reference, a good reference material for us to use.
    Mr. Tonko. OK. Anything that you want to add to that, 
Admiral?
    Adm. Lautenbacher. No, that's the best thing that I know of 
that we have out there right now.
    Mr. Tonko. OK. And with the space weather effects that 
range from insignificant to highly disruptive to our 
communication systems, with the public and business 
involvement, should they prepare for such events if they--are 
they informed in a way to know how to respond to different 
events? And how often do different kinds of space weather 
events occur?
    Mr. Murtagh. So on the NOAA space weather scales, it's a 
question that's so often asked. How often do they occur? So we 
did include it on there. And that 1 through 5 where 5 is an 
extreme event on a radiation storm, the S scale, we haven't had 
one of them in 30 years. We started taking measurements in 
1974. We haven't had one yet. On the G5 level, extreme 
geomagnetic storm, typically we'll get one or two per cycle. I 
think the last one was in 2003.
    Industry and customers are so wide-ranging now, some of 
them quite sophisticated and understand this stuff like 
satellite operators. Many others, not so much. Airlines would 
be a good example. So we do maintain close communications with 
those folks to make sure that they understand what they're 
getting when they get it.
    Mr. Tonko. OK. My time is now exhausted, so I will yield 
back.
    Chairwoman Fletcher. Thank you very much. I'll now 
recognize Mr. Murphy for 5 minutes.
    Mr. Murphy. Thank you, Madam Chair. I just want to say 
thank you to the presenters. Your expertise and dedication to 
this field is exemplary, and it's obvious.
    You know, one person made a comment a few minutes ago, I 
think it was Mr. Murtagh, about individual weather. That's what 
most people care about. They want to look outside and see if it 
can have a picnic or go to a ballgame. But it's under your 
responsibility, it's under our responsibility really to look at 
the bigger global picture. And so I thank you for that. It's an 
important thing that doesn't have partisan politics in its back 
pocket. It doesn't have national politics in its back pocket 
because the Earth is one place, and it's affected globally by 
events that occur in the sun. So, again, thank you for your 
dedication. It's really important really for us as a species if 
it is.
    Just a couple questions. I'll be a lot more granular. I 
live down on the East Coast of North Carolina. My district 
probably has more coastline than anybody else in North 
Carolina, so I want a crack here at your brains on seeing if 
you can help me. Is there anything that we have as far as space 
weather prediction? You know, we have these things called 
hurricanes, and we don't like them in North Carolina, but they 
tend to come right to us. And so I didn't know if there's 
anything that you guys have, you know, up your sleeve that help 
us in the future to be able to predict the intensity, predict 
the path, predict the rainfall amounts that we can use to 
better gauge how these will affect us.
    Mr. Murtagh. Yes. And there's been a term we've been using 
at the operation center. We call it the money chart, and that's 
what you're looking for is something that makes sense to 
people. But is it to identify when GPS may be having problems 
or when there's a potential grid problem? We are absolutely 
focusing--and I mentioned it already with the geoelectric field 
model--focusing on trying to capture that key piece, where will 
the impacts be felt? We should be past that point where we're 
advising the whole world something's going to happen, it's 
going to hit somewhere, maybe in South Africa, maybe in 
Scandinavia, or maybe in New York City. We have got to be able 
to identify and then help the folks in North Carolina 
understand when space weather might affect them. So we are 
getting there.
    I have introduced a new suite of models on the Earth 
modeling system that's helping us just drill down and start--
we're years away, but we have to start somewhere to get to that 
point where we can do just as you ask.
    Mr. Murphy. Excellent. Thank you. Just one other question. 
You know, the United States, we seem to be leading in this 
regard. This is a global issue. It's a global phenomenon. How 
much funding does the United States put in compared to other 
nations? And where are we in trying to get our global partners 
to jump on the bandwagon and really participate in this as an 
earthly event?
    Dr. Fox. So we have very close partnerships with many of 
our overseas colleagues. We actually sort of work together on a 
lot of the missions. For example, solar orbiter, which is an 
ESA mission, has a couple of NASA instruments but NASA is 
actually launching it for them. We are also in--talking to them 
about a possibility of an L5 mission, so Mr. Murtagh mentioned 
the L1 point, which is a million miles away. L5 is kind of off 
to the side, so it lets you look at those sunspots coming round 
before they actually get to you. And so we're actually talking 
very closely with them about that.
    We've talked to many of our sister agencies in other 
countries because really, as you note, space weather is a 
global problem. It doesn't just hit one place. You may be 
unlucky, and we happen to be at the midnight sector, which is 
that kind of worst place to be as things come rushing down on 
the night side, but until we can really say it's going to be 
here at this time and this is the country that's in that little 
window, it's really a global problem. So we work very, very, 
very closely with all of our sister agencies to really make 
this a global solution.
    Mr. Murphy. Excellent. Thank you, Madam Chair. I yield back 
my time.
    Chairwoman Fletcher. Thank you very much. I now recognize 
Mr. Crist for 5 minutes.
    Mr. Crist. Thank you, Madam Chair, and thank both the 
Chairs for convening this hearing. I appreciate that very much.
    It's sort of an overarching question to anybody who wants 
to answer it, and thank you all for being here by the way. 
What's the most dangerous aspect for humans from space weather?
    Dr. Fox. So that really depends honestly on the system that 
you particularly care about. For the human body, for our 
astronauts, that's why we really have to watch the space 
radiation, and we've put a lot of investment and a lot of 
effort. NASA's number-one priority is the safety of our 
astronauts.
    Down here on Earth obviously we don't have to worry about 
that, but airline passengers, we watch the radiation for those. 
Power grids we've already talked about. That becomes very 
critical if suddenly it's a life-and-death situation where 
you're relying on that power grid to be up. So it really 
depends a little bit on your perspective, but for NASA, 
certainly it's the radiation effects on our astronauts.
    Mr. Murtagh. If I could just add to that, the Committee 
might be interested to know that within the United Nations 
there's the International Civil Aviation Organization (ICAO) 
who has been working on this issue for over a decade now. And 
coming up next month, hot off the press will be a new suite of 
space weather services that will be provided for global 
aviation, space weather services. And the ICAO group have 
identified three centers for the provision of these services, 
and the United States is one of the three. The threat of course 
is communications, navigation, but also, as Dr. Fox mentioned, 
radiation exposure. When you fly over the poles, there is 
increased radiation that can cause some problems.
    Mr. Crist. Great. Admiral?
    Adm. Lautenbacher. I mentioned that there is also part of 
the commercial sector that produces sensors that people can 
wear and maintain and get immediate connection with the ground 
to find out whether they're getting exposure that could be 
dangerous and how they can change the mission and that sort of 
thing. So these inventions that are out there now are going to 
be very helpful to the aviation world.
    Mr. Crist. Thank you very much. Thank you all. So radiation 
is the greatest concern it sounds like?
    Mr. Murtagh. Just from human exposure. And obviously----
    Mr. Crist. Indeed.
    Mr. Murtagh [continuing]. Losing electric power over a wide 
area for a long length of time would be a big, big concern.
    Mr. Crist. Certainly. What is the cause of the radiation in 
space? Is it solar spots or--yes?
    Dr. Fox. So the increased radiation usually is because of 
those sunspots that we call it a flare where you see that 
bright flash of light and it accelerates particles at about 
half the speed of light, so they take 8 minutes for light to 
travel from the sun to the Earth. It's about 15 to 20 to 30 
minutes, those particles will start coming in.
    However, we live with our own radiation environment around 
us. We have the Van Allen radiation belts, the two intense 
radiation belts that kind of encircle the equator, and we have 
a lot of spacecraft, space assets that actually have to travel 
through these belts. And sometimes when we get these big 
events, these belts can grow both in size and also in 
intensity, and so that can have a very big impact on the assets 
that maybe they're not actually supposed to be in the radiation 
belts and suddenly that radiation belt kind of grows and 
engulfs that spacecraft.
    Mr. Crist. Is it safe to say generally that our atmosphere 
protects humans on Earth for the most part from any radiation 
from the sun?
    Dr. Fox. Yes, we're very lucky from that. Yes.
    Mr. Crist. I would say. And I guess probably my last 
question, Dr. Fox, to you, in your testimony you note the 
potential for the Artemis program to further our knowledge of 
space weather and space radiation. It is my understanding that 
this is because the Moon is well outside of the Earth's 
protective magnetic field. What challenges or opportunities 
does the orbit of the lunar gateway present for heliophysics, 
particularly as it relates to space weather?
    Dr. Fox. So definitely lots and lots of opportunities, as 
you note. The Moon is sometimes protected when it's behind the 
Earth. It's in our magnetosphere, so it's protected, but there 
are a lot of times when the Moon is actually out in what we 
call the pristine solar wind, so this continually expanding 
atmosphere of the corona coming out and engulfing us. And so we 
really look forward to being able to further our knowledge of 
what is in this solar wind and then apply that to our Artemis 
program as we go forward to the Moon and Mars and beyond.
    Mr. Crist. Great. Thank you, all three of you, very much. 
Thank you, Madam Chairs.
    Chairwoman Fletcher. Thank you. I'll now recognize Mr. 
Perlmutter for 5 minutes.
    Mr. Perlmutter. Thanks, Madam Chair. And, Bill, good to see 
you.
    Mr. Murtagh. Good to see you.
    Mr. Perlmutter. Thank you all very much for your testimony 
today. I'll be pretty brief, just a quick statement and then a 
couple questions. So thank you for convening this hearing. I've 
been interested in space weather for some time now, and I'm 
excited the Committee is really looking at this closely.
    Colorado, Mr. Murtagh, has some of the best minds, 
laboratories, and research institutions on space weather in the 
country. We have institutions like CU Boulder and the National 
Center for Atmospheric Research, as well as NOAA's Space 
Weather Prediction Center, among others. And that's why Cory 
Gardner, a Senator from Colorado, is working with Gary Peters, 
a Senator from Michigan, on the Space Weather Research and 
Forecasting Act in the Senate, and that's why we've been 
encouraging the Science Committee to take up that legislation 
to help the academic community and the commercial sector best 
contribute and participate in our space weather enterprise, so 
to work with NOAA through this whole process and make sure we 
don't have silos. And, you know, over the last couple years I 
can see that those silos have been really disappearing, which I 
just want to applaud you all so that we're not all just sort of 
not talking to each other.
    And just since I was introduced to this subject, clearly 
the communication lines between the academics, the government, 
and the commercial sector have just improved magnificently.
    The Senate Commerce Committee passed an updated version of 
this legislation in April, and since that time, I've been 
working with Mo Brooks to update that legislation with some 
additional provisions and move us closer to passing the bill 
into law. Our overarching goal through this legislation is to 
advance space weather research and forecasting enterprise, help 
solidify the swim lanes, who's actually doing what, but then 
really continue a robust communication between the different 
groups.
    I want to thank Mr. Brooks for his partnership on this 
issue and the committee staff for their expertise as we've been 
drafting this bill. We hope to release the text of the bill 
next week to get additional feedback from all of you, our 
colleagues, the agencies, and academia and the commercial 
sector.
    So, Admiral, I'd like to start with you. I see Mr. Murtagh 
not on a regular basis but from time to time, and you know, 
since I'm not too far away from the Space Weather Center. So my 
question to you is, what things do you think need to be done to 
improve the overall communication between the academic 
community, NOAA, and the commercial sector? And then I'll ask 
you about the military in just a second.
    Adm. Lautenbacher. We have to build a more robust system 
that combines what I would say meetings, kind of protocols to 
deal with. And we get used to the fact that we need to work 
together across--from--and the civilian side is maybe a little 
more fractured because there are different companies, but we do 
have, you know, organizations that bring together companies and 
can work with government agencies. It's very hard to take a 
government agency and work with a group of companies. And 
that's too hard, I'm not going to work on this one today.
    In this area, we really need to stress ourselves and get to 
the point where we have those mechanisms. The mechanisms allow 
a phone call to be picked up and talk directly and so that we 
can do rapid reaction, moving of the data, moving of the 
issues. The commercial sector is in good shape in a way because 
it has folks all the way from basic research all the way up to 
emergency management to help in situations. So we would like to 
be involved in those kinds of conversations and the bill could 
help us set up something that would be, I think, more robust 
than we have today. Thank you.
    Mr. Perlmutter. Dr. Fox, what are your thoughts?
    Dr. Fox. So I, first of all, would recognize the tremendous 
efforts that have really helped us from the National Space 
Weather Strategy and Action Plan, and they're really providing 
a forum for us to work really, really well together on really 
tough problems. I mean, as you can probably note, NOAA and NASA 
are working very, very closely together on the space weather 
piece itself, taking all of our great research and then making 
sure that we really are transitioning it. So I really think 
that has just been a tremendous benefit.
    And I'll also note that, you know, at NASA we've really 
embraced this idea of sort of rideshare programs. There is now 
a rideshare policy that we have of making sure if there's 
something launching that we look for other opportunities to 
take more mass to space, get more science in space. And that of 
course includes our commercial partners also. And so under the 
Artemis program we really are exploring even more the 
commercial side.
    And then I'll just throw in--I know that we're out of 
time--but from our decadal survey, we were asked to do this 
DRIVE (Diversity, Realize, Integrate, Venture, Educate) 
initiative. And one of the big things was the science centers, 
and so that really does just provide this amazing forum for 
academia, government, industry all working together. We're 
excited. We got 39 proposals. It's a nightmare to try and 
review them, but it's a product of our own success, so we're 
happy.
    Mr. Perlmutter. All right, thank you. And, Bill, I'll ask 
you my question when we're on the flight home.
    Mr. Murtagh. All right.
    Mr. Perlmutter. I'll see you.
    Chairwoman Fletcher. Thank you. Thank you. Well, before we 
bring the hearing to a close, I want to thank all of you for 
your testimony here today. I think it was really important, and 
I'm so glad that we were able to have this hearing.
    The record of the hearing will remain open for 2 weeks for 
additional statements from the Members and for any additional 
questions that they may ask of you. And so I look forward to 
seeing your additional answers or should more questions be 
sent, and I think I saw my colleague Ms. Horn jotting one down, 
so I think you all can all expect at least one.
    But for now, you all are excused, and the hearing is 
closed. Thank you so much.
    [Whereupon, at 4:11 p.m., the Subcommittees were 
adjourned.]

                                Appendix

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
